CERTIFICATE OF SERVICE
NO. 20-1076
SE Property Holdings, LLC, as Successor by Merger to Vision Bank
Petitioner,
v.
Jerry D. Gaddy
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SE
PROPERTY HOLDINGS, LLC, AS SUCCESSOR BY MERGER TO VISION BANK REPLY BRIEF OF PETITIONER,
by mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid for delivery to the
following address.
Douglas Joseph Centeno
Benton, Centeno & Morris, LLP
2019 3rd Avenue North
Birmingham, AL 35203
(205) 278-8000
dcenteno@bcattys.com
Counsel for Jerry D. Gaddy

Lucas DeDeus

March 18, 2021
SCP Tracking: Mark Gaal-P.O. Box 350-Cover Tan

